1
CERTIFICATE OF SERVICE

This is to certify that I have this day served the opposing party to this
action with a true and correct copy of the within and foregoing PETITION
FOR REHEARING by depositing a copy of same in the U.S. mail via the
prison’s internal mailing system, with adequate postage affixed thereon to
ensure prompt delivery, and addressing it to:

Andrew Alan Pinson, Asst. Atty. General
Georgia Department of Law
40 Capitol Square, S.W.
Atlanta, GA 30334-1300

This 26th day of October, 2020.
Respectfully submitted,

PETITIONER, pro se

i7.

¥

Gmail * (no subject)

10/18/2020
V i

' t

*
•

-■

Pr
23S£*...

HIK

JKivi
‘f.’pi

fii.' -'

%

®***'i,y

m

s&W v-.-’i

Sent from Yahoo Mail on Android

.;

•!&

*

No. 20-5025

IN THE
SUPREME COURT OF THE UNITED STATES OF AMERICA
EDDIE MATTHEW AMOS,
Petitioner,
V.
TOMMY BOWEN, Warden,
Respondent.

On Petition for a Writ of Certiorari to the United States Court of Appeals for
the Eleventh Circuit

RE-SUBMISSION OF PETITION FOR REHEARING
Comes now Eddie Matthew Amos, the petitioner pro se in the abovestyled case, and does hereby file his instant Re-Submission of Petition for
Rehearing. And for good and just cause as to why this Re-submission
should and must be GRANTED, the petitioner shows and states as follows:
1.)

On Monday, November 16,2020, the petitioner received a letter from the
clerk’s office of the Supreme Court of the United States in regard to the
petitioner’s Petition for Rehearing which he submitted to this Court on the
26th day of October, 2020. Accompanying the letter from the clerk’s office
was the petitioner’s Petition for Rehearing, returned unfiled based upon the
clerk’s assessment that the Petition for Rehearing was not received in the
clerk’s office until November 4,2020; therefore, rendering it out-of-time.
2.)

Pursuant to Rule 44 of the Rules of the Supreme Court of the United
States, a petition for rehearing is required to be SUBMITTED within 25
days after the decision of the Court. As the petition for writ of certiorari
DEC “ 9 2020
OFFICE OF THE CLERK
SUPREME COURT. U.S.

-r

was denied on October 5, 2020, the petitioner’s Petition for Rehearing was
required to be SUBMITTED on or before October 30, 2020. The petitioner
SUBMITTED his Petition for Rehearing on October 26th, 2020, which is 4
days prior to the October 30, 2020, deadline.
3-)
The petitioner shows that his Certificate of Service reflects that he
SUBMITTED his petition for rehearing on October 26, 2020. That date is
the date which this Court should have acknowledged as being the date on
which the petitioner’s Petition for Rehearing was filed. The Supreme Court
of the United States has already addressed this issue in Petitioner’s favor in
their landmark decision titled Houston v. Lack, 487 U.S. 266 (1988). In
that landmark case, the Justices ruled that an inmate’s legal mail is deemed
filed on the date in which it was placed in the prison’s mailbox. In accord
therewith, the Georgia Supreme Court also ruled that an inmate’s legal mail
is deemed filed on the date in which it was placed in the prison’s mailbox.
See, Massalinev. Williams. 274 Ga. 552, 554 S.E.2d 720 (2001).
WHEREFORE, the petitioner respectfully urges this Honorable Court
to accept his Petition for Rehearing and consider it as being timely filed on
October 26, 2020—the date which is indicated on the Certificate of Service
and, also, the date on which the petitioner placed his Petition for Rehearing
inside the prison mailbox. (A copy of the Petition for Rehearing is attached
hereto).
I DECLARE UNDER PENALTY OF PERJURY THAT THE
FOREGOING IS TRUE AND CORRECT. Executed this 25th day of
November, 2020.
Respectfully submitted,

PETITONER, pro se
Please serve;
Eddie M. Amos, GDC# 888637
Dodge State Prison
P.O. Box 276
Chester, GA 31012

CERTIFICATE OF SERVICE

This is to certify that I have this day served the opposing party to this
action with a true and correct copy of the within and foregoing RESUBMISSION OF PETITION FOR REHEARING by depositing a copy of
same in the United States mail via the prison’s internal mailing system, with
adequate postage affixed thereon to ensure prompt delivery, and addressing
it to:

Andrew Alan Pinson, Asst. Atty. General
Georgia Department of Law
40 Capitol Square, S.W.
Atlanta, GA 30334-1300

This 25* day of November, 2020.

Respectfully submitted,

PETITIONER, pro se

-T

SUPREME COURT OF THE UNITED STATES
OFFICE OF THE CLERK
WASHINGTON, DC 20543-0001
November 6, 2020

Eddie Amos
#888637
Dodge State Prison
P.O. Box 276
Chester, GA 31012
RE: Amos v. Tommy Bowen, Warden
No: 20-5025
Dear Mr. Amos:
The petition for rehearing in the above-entitled case was received November 4, 2020
and is herewith returned as out-of-time.
Pursuant to Rule 44 of the Rules of this Court, a petition for rehearing must be
submitted within 25 days after the decision of the Court. As the petition for writ of
certiorari was denied on October 5, 2020, the petition for rehearing was due on or before
October 30, 2020.

Sincerely/
Scott S,/Harris, Clerk
7
By: /
Su^an jprimpong
(202)479-3039

Enclosures

